   September 27, 2006




Information Technology
Management
American Forces Network Radio
Programming Decisions
(D-2006-117)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AFIS                  American Forces Information Service
AFN                   American Forces Network
AFRTS                 American Forces Radio and Television Service
AFN-BC                American Forces Network - Broadcast Center
ASD(PA)               Assistant Secretary of Defense (Public Affairs)
OIG                   Office of Inspector General
                Department of Defense Office of Inspector General
Report No. D-2006-117                                                September 27, 2006
   (Project No. D2006-D000FI-0103.000)

         American Forces Network Radio Programming Decisions

                                  Executive Summary

Who Should Read This Report and Why? This report will be of interest to DoD
personnel responsible for the selection and distribution of talk-radio programming to
overseas U.S. Forces and their family members and military personnel serving onboard
ships. The report discusses the controls and processes needed for establishing a diverse
inventory of talk-radio programming on American Forces Network Radio.

Background. We performed the audit in response to a congressional request signed on
November 4, 2005, from Representative Louise M. Slaughter and 23 of her colleagues.
The representatives expressed concern regarding a delay by American Forces Network
Radio in providing balanced talk-radio programming to U.S. Forces overseas and
onboard ships. They requested that the Department of Defense Office of Inspector
General examine the review process for the programming permitted on American Forces
Network Radio and determine whether the application of the review process on
conservative and progressive programming was objectively applied. The representatives
also requested that we assess the diversity of the programs broadcasting on American
Forces Network Radio.

The American Forces Information Service provides communications services to support
the information needs of commanders and combat forces throughout the entire range of
military operations and contingencies. The American Forces Information Service directs
the American Forces Radio and Television Service and the American Forces
Network-Broadcast Center. The American Forces Network-Broadcasting Center, the
main broadcasting hub for American Forces Radio and Television Service, provides
U.S. military commanders worldwide the unique means to communicate internal
information directly to overseas U.S. Forces and their family members. American Forces
Network Radio is the Component of the American Forces Network-Broadcast Center that
provides a schedule of uninterrupted radio programming to U.S. Forces overseas. The
radio programming also permits each American Forces Network affiliate to select talk-
radio programs from the inventory for rebroadcast on local stations. Military
Commanders use the affiliate stations to provide local command-related information to
the listening audiences.

Results. American Forces Radio and Television Service managers objectively applied
the review process in selecting political talk-radio programming on American Forces
Network Radio. However, the American Forces Radio and Television Service did not
provide diverse political talk-radio programs to American Forces Network Radio listeners
until December 5, 2005, when it added “The Ed Schultz Show” and two other political
talk-radio programs to the American Forces Network Radio inventory.

The American Forces Radio and Television Service did not document the decision
making process used to review, select, and approve radio programming for broadcast on
American Forces Network Radio. As a result, American Forces Radio and Television
Service personnel could not readily support the appropriateness of their radio
programming decisions and ensure that they provided diverse programming to
U.S. Forces stationed overseas. Further, the inability to adequately support decisions
exposed DoD to unfavorable criticism from external sources such as Congress and the
public media. The American Forces Radio and Television Service should update DoD
Regulation 5120.20-R to establish the criteria for reviewing, selecting, approving, and
preparing radio programs for broadcast; flowchart the decision making process; and
identify the decision points and positions of authority responsible for making and
approving programming decisions. The regulation should also address how to categorize
the types of radio programming offered, define key terms, establish survey frequency,
and develop policies for determining program diversity. The American Forces
Network-Broadcast Center needs to establish and maintain files documenting its
programming decisions and take steps to analyze and implement recommendations
contained in the recent radio survey. See the Finding section for detailed
recommendations.

Management Comments and Audit Response. The Deputy Assistant Secretary of
Defense for Internal Communications 1 concurred with the recommendations and stated
that the American Forces Radio and Television Service will update DoD
Regulation 5120.20-R with radio programming decision making policy. However, she
did not state whether the regulation would include the detailed policies, controls, and
procedures needed to govern radio programming decisions. The Deputy Assistant
Secretary of Defense for Internal Communications’ comments are partially responsive.
We request that the Deputy Assistant Secretary of Defense for Internal Communications
provide additional comments to the final report by October 27, 2006.

The Executive Director, Defense Media Center 2 agreed to maintain written files of
programming decisions and assess and develop an approach for implementing the
recommendations of the recent radio survey in conjunction with the American Forces
Radio and Television Service. See the Finding section of the report for a discussion of
management comments and the Management Comments section of the report for the
complete text of the comments.




1
    The Deputy Assistant Secretary of Defense for Internal Communications also serves as the Director,
    American Forces Information Service.
2
    The Executive Director of the Defense Media Center also serves as the Director, American Forces
    Network-Broadcast Center.



                                                      ii
Table of Contents
Executive Summary                                        i

Background                                               1

Objectives                                               2

Review of Internal Controls                              2

Finding
     Documentation of AFN Radio Programming Decisions   4

Appendixes
     A.   Scope and Methodology                         12
     B.   Congressional Request                         14
     C.   Response to Issues in Congressional Request   17
     D.   Glossary of Terms                             20
     E.   Program Review Process                        22
     F.   Report Distribution                           24

Management Comments
     American Forces Information Service                27
     American Forces Network-Broadcast Center           28
Background
           We performed the audit in response to a congressional request signed on
           November 4, 2005, from Representative Louise M. Slaughter and 23 of her
           colleagues. They requested that the DoD Office of Inspector General (OIG)
           examine the review process for the programming permitted on American Forces
           Network (AFN) Radio and determine whether the application of the review
           process on conservative and progressive programming 3 was objectively applied.
           The representatives also requested that we assess the diversity of the programs
           broadcasting on AFN Radio. See Appendix B for a copy of the congressional
           request and Appendix C for our detailed responses to the issues raised in the
           congressional request.

           American Forces Information Service (AFIS). As the principal DoD internal
           information organization, AFIS works directly for the Assistant Secretary of
           Defense (Public Affairs) (ASD[PA]). AFIS provides internal information to
           U. S. Forces, their families, and DoD civilians overseas about DoD:
                    •   goals

                    •   missions

                    •   policies

                    •   programs

                    •   standards

           The AFIS mission also includes providing high quality news, information, and
           entertainment programming; training all public affairs professionals; and
           providing communications management, distribution, and technical services to
           U.S. military commanders in support of their internal information objectives.
           American Forces Radio and Television Service (AFRTS). AFRTS provides
           radio and television programs to almost 1 million Service members and their
           families and DoD civilians overseas. As a major means of keeping U.S. Forces
           and their families informed and entertained when they are far from home, AFRTS
           distributes these programs to affiliate stations and outlets by satellite and on video
           and audio tape through the mail. Affiliate stations locally produce their own
           command information programming. AFRTS presents programming that
           represents a cross section of what people in the U.S. would see and hear without
           censorship, propagandizing, or manipulation. The AFN-Broadcast Center
           (AFN-BC) has sole authority for obtaining programs from commercial radio and
           television networks and syndicators for broadcasting to U.S. Forces worldwide.



3
    The use of the terms “conservative” and “progressive” in this report are as implied in the congressional
    request letter. The use of these terms does not constitute a value judgment of any radio programming by
    the DoD OIG.



                                                       1
     AFRTS has television and radio outlets in more than 150 countries that range in
     size and capability from large radio and television facilities to small unmanned
     stations.

     AFN Radio Programming. AFN-BC distributes radio entertainment programs
     acquired from commercial and public radio networks and syndicators on AFN
     Radio. AFN Radio provides music in seven different formats ranging from
     country to hard rock. AFN Radio also distributes voice radio consisting of
     international, national, and military radio news; commentary; talk-radio programs;
     and play-by-play sports. AFN Radio provides this service 24 hours a day, 7 days
     a week by satellite, shortwave radio, and through cable systems. Service
     members are able to hear talk-radio programming on the Voice Channel. The
     Voice Channel is one of the stations broadcast through both Direct-To-Home and
     Direct-To-Sailor satellite dish systems. In addition, AFN affiliate stations are
     able to select radio programs from the AFN broadcast inventory based on the
     listening audience’s desires for rebroadcast on their local radio stations.

     DoD Guidance. DoD Directive 5120.20, “Armed Forces Radio and Television
     Service,” December 17, 1991, defines the responsibilities and policies of AFRTS.
     DoD Regulation 5120.20-R, “Management and Operation of Armed Forces Radio
     and Television Services,” November 8, 1998, prescribes and establishes
     procedures for the administration and operation of all AFRTS outlets and
     functions. The regulation authorizes AFRTS affiliates to conduct formal and
     informal audience surveys to ascertain audience needs and reaction to AFRTS
     services. An internal document to the AFN-BC, “AFRTS Programming
     Services,” February 2001, provides AFRTS operational policy and prescribes
     programming policies, distribution procedures, and the methods for handling the
     program services by AFRTS affiliate stations. That policy requires balance and
     diversity in television and radio programming.

Objectives
     The overall audit objective was to examine the process used by DoD for
     permitting programming on AFN Radio and to determine whether that process
     was objectively applied to both politically conservative and politically progressive
     programming. We also analyzed the diversity of programs broadcasting on AFN
     Radio. See Appendix A for a discussion of the scope and methodology. See
     Appendix D for an explanation of terms used throughout the report.

Review of Internal Controls
     DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
     and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”




                                          2
           August 28, 1996, 4 require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of controls.

           AFIS internal controls were not adequate. We identified internal control
           weaknesses as described in DoD Instruction 5010.40 over the review process for
           the programming permitted on AFN Radio. AFIS did not have written policies,
           controls, and procedures for the radio programming decision making process. In
           addition, AFN-BC did not create and maintain written files to document radio
           programming decisions. The internal control weaknesses, although not material,
           prevented AFRTS personnel from readily supporting the appropriateness of radio
           programming decisions and ensuring that they provided diverse programming to
           U.S. Forces stationed overseas. Implementing Recommendations 1 and 2.a. will
           improve the review process for the programming permitted on AFN Radio.




4
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
    Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on January 4,
    2006.



                                                     3
           Documentation of AFN Radio
           Programming Decisions
           AFRTS did not document the decision making process used to review,
           select, and approve talk-radio programming for broadcast on AFN Radio.
           AFRTS managers had not identified the need to formally document the
           decision making process because they had not experienced any
           controversy regarding which programs they broadcast before a variety of
           political talk-radio programs became nationally syndicated on commercial
           radio. Therefore, they had developed an informal process for
           implementing their decisions. Specifically, AFRTS managers had not
           documented the:
                •   categories of talk-radio programming,

                •   criteria required for selecting balanced and diverse radio
                    programming,

                •   approval authorities for radio programming decisions, and

                •   process required for obtaining programs for broadcast on AFN
                    Radio.

           As a result, AFRTS personnel could not readily support the
           appropriateness of their talk-radio programming decisions and ensure that
           they provided diverse programming to meet the needs of U.S. Forces
           stationed overseas. Further, the inability to readily support decisions
           exposed DoD to unfavorable criticism from external sources such as
           Congress and the public media.

AFN Talk-Radio Programming Decisions
    AFRTS did not document the processes and procedures used for making objective
    programming decisions. Although AFRTS managers thoroughly explained the
    process used in making decisions, neither DoD Regulation 5120.20-R nor other
    AFRTS internal guidance documented the decision making process used to
    research, select, approve, and obtain talk-radio programming from commercial
    sources. The process for making talk-radio programming decisions should
    contain distinct tasks and decision points that personnel can formally document.
    The lack of a documented process significantly contributed to AFRTS’ inability
    to provide support for its programming decisions and prompted others to question
    its programming decisions.




                                        4
Voice Channel Programming Decisions
AFRTS had not established formal procedures for deciding which talk-radio
programs to broadcast on the Voice Channel. AFRTS could not identify
regulatory guidance that described AFRTS responsibilities, policies, or
procedures in making radio programming decisions. However, AFRTS personnel
described the procedures they used as well as the associated controls, policies,
decision points, and approval levels. The personnel informed us that they
accomplished the entire process without documenting decisions or approvals.
Because documented procedures did not exist, we identified the specific tasks and
approval points AFRTS used in making radio programming decisions.

To better understand the process we also requested that the Director of AFRTS, in
coordination with the Director of AFN-BC, develop flowcharts identifying the
decision points and the individuals responsible for making and approving
programming decisions. The AFRTS managers identified two distinct processes;
one for political talk-radio programs and one for all other types of radio programs.
They explained that the time it took to make program decisions depended on the
availability of the key individuals who had approval authority. AFRTS should
update DoD Regulation 5120.20-R to identify the decision points and the position
titles of those responsible for making and approving radio programming
decisions. The availability of detailed guidance might have alleviated some of the
criticism of the radio programming decision process. See Appendix E for the
flowcharts showing the two decision processes.

Categories of AFN Talk-Radio Programming
DoD Regulation 5120.20-R did not document a method for categorizing the types
of talk-radio programming offered in the AFN Radio broadcast inventory.
Likewise, the regulation did not provide the criteria needed for AFRTS personnel
to assess whether each category of programming provided AFN Radio listeners
with balanced and diverse viewpoints. With the addition of political talk-radio
programming to the AFN Radio inventory in early 1994, AFRTS needed to
update the DoD guidance to establish clear definitions of what DoD considered
politically conservative programming and politically progressive programming,
and how it applied these terms to the various categories of talk-radio
programming when assessing diversity. However, AFRTS had not defined
diversity in political talk-radio programming. Instead, AFRTS personnel
expressed a general consensus that diversity in programming meant making
available various types of programs in five program categories. AFRTS managers
understood that talk-radio programming required categorization, but the managers
had not identified the need to establish these categories in formal policy. When
asked, AFRTS personnel categorized their talk-radio programs using the
description provided on the website of “Talkers Magazine,” a radio industry
publication. The table shows a comparison of the percentage of each category of
programming provided by AFN Radio before and after AFRTS managers made
program changes in 2005.




                                     5
          Comparison of Voice Channel Programming by Category

                                  May 2005                         December 2005
Category                         (Percentage)                       (Percentage)

                                      47.0                                40.2
News1


Sports and Sports                     24.0                                25.0
Talk2


General Interest/                     24.0                                22.9
Life Style3

                                      3.0                                 11.9
Political Talk4


Miscellaneous5                        2.0                                  0.0

1. News. This category includes the different news programming provided by the major
broadcasting companies.
2. Sports and Sports Talk. This category includes coverage of sporting events and sports talk
shows such as “The Jim Rome Show.”
3. General Interest/Life Style. This category includes shows that would be of interest to the
general public, such as car repair, cooking shows, and relationship shows such as those
featuring Dr. Laura Schlessinger and Dr. Joy Browne.
4. Political Talk. This category includes shows that provide a political prospective as
presented on “The Rush Limbaugh Show” and “The Ed Schultz Show.”
5. Miscellaneous. This category includes short-form newscasts and features.



Defining diversity in the political talk-radio category seemed most appropriate
because viewpoints expressed in those programs tend to be, by nature,
controversial. Accordingly, the entire spectrum of political viewpoints should be
considered when selecting political talk-radio programming for broadcast. The
lack of documented programming categories with associated diversity criteria
prompts Congress and others to question the balance and diversity of
programming available on AFN Radio. In the future, AFRTS should use
categories comparable to those used by the radio industry for its talk-radio
programs. It should develop written policies to determine program diversity
criteria for each category or explicitly state the category and circumstances when
program diversity is not a consideration.

Selection of Talk-Radio Programming
AFRTS did not document the criteria used in selecting talk-radio programming
for broadcast by AFN Radio. DoD guidance lacked detailed criteria that


                                             6
           managers could use in selecting programming for broadcast. AFRTS personnel
           stated that they considered three undocumented criteria when considering a
           talk-radio program for selection to broadcast on AFN Radio. The program must:

                   •   be nationally syndicated;
                   •   have more than 1 million listeners every week, as measured by
                       industry standards; and
                   •   provide a “touch of home” to listeners. 5

           Although AFRTS managers had not documented the selection criteria they used,
           they told us that they considered their criteria to be comparable with industry
           practices. However, managers could not provide documentation of the industry
           practices that supported this viewpoint. Although we did not find the
           undocumented criteria to be inappropriate, without formally documenting the
           criteria, the selection process lacked transparency and permitted others to interpret
           the process differently than AFRTS may have intended. AFRTS should establish
           the selection criteria for talk-radio programs and incorporate the criteria into DoD
           Regulation 5120.20-R.

           Selection of Political Talk-Radio Programming. The sensitivity of political
           talk-radio programming caused Congress and others to question whether AFRTS
           had used consistent criteria in selecting programming. Prior to 2005, AFN Radio
           broadcast only one political talk-radio program. In 1994, AFN Radio began
           broadcasting the first hour of “The Rush Limbaugh Show” on the Voice Channel.
           Beginning in 2004, based on congressional inquiries concerning the diversity in
           radio programming, AFRTS personnel actively began searching for a political
           talk-radio program to balance the political viewpoints provided on AFN Radio.
           Although the number of nationally syndicated progressive political talk-radio
           programs had increased, none of the programs had more than 1 million listeners.
           A review of available documents indicated that the initial decision to select “The
           Ed Schultz Show” was made before documenting that the show had 1 million
           listeners. The Fall 2005 rating list in “Talkers Magazine,” identified “The Ed
           Schultz Show” and one other progressive talk-radio show as having at least
           1 million listeners.

           Objectivity in Selecting Programming. AFRTS managers used similar criteria
           for selecting conservative and progressive political talk-radio programming on
           AFN Radio. AFRTS personnel objectively applied their unwritten criteria to both
           types of political talk-radio programming. E-mail messages showed that AFRTS
           had conducted extensive research on which political talk-radio programs to
           choose. AFN Radio personnel presented programming options to higher level
           management for decision making purposes. Despite extensive political interest
           directed to AFRTS management to broadcast a particular program before it met
           the criteria of having more than 1 million listeners, AFRTS personnel added the
           program only after the show met the criteria. However, AFRTS should include its
           selection criteria in DoD Regulation 5120.20-R to prevent unwanted criticism and
           the potential for individuals circumventing the selection criteria because of
           political or departmental pressures.

5
    AFRTS defined “a touch of home” as programming representative of the popular radio programs
    currently broadcasting in the United States.



                                                    7
Approval of Radio Programming Decisions
AFRTS did not document the approval process for adding radio programming to
the AFN Radio broadcast inventory. DoD Regulation 5120.20-R did not identify
the required levels of management that should approve the selection of talk-radio
programming. Further, the guidance did not require that AFRTS personnel
prepare and retain documentation showing the approval of programming
decisions. Consequently, AFRTS did not have signed documentation identifying
who or when they had granted approval to add programs to the AFN Radio
broadcast inventory. AFRTS should develop controls that clearly identify and
document the approval levels for radio programming. AFN-BC personnel should
also maintain written files documenting the selection and approval of
programming decisions.

AFRTS Approval Process. AFRTS managers approved radio programming
decisions orally or through the use of e-mail messages. This method did not
provide formal accountability for the decision making process. AFRTS personnel
informed us that once a program met the selection criteria, they recommended the
program for selection. Managers discussed recommended programming changes
as part of their weekly meetings with the Director of AFN-BC, who approved or
denied the programming changes. Once approved, the Director of AFN-BC
presented the programming recommendation to the Director of AFIS for final
approval after briefing and obtaining concurrence from the ASD(PA). However,
the approving officials did not formally document these decisions.

Approval of “The Ed Schultz Show” for Broadcast. AFRTS followed an
informal and undocumented approval process for selecting and approving “The
Ed Schultz Show” for broadcast on AFN Radio. The informal nature of the
approval process led to congressional and media criticism of an e-mail
announcing the program’s start date and the subsequent decision not to broadcast
the program on that date. AFRTS managers could support their claim that they
had announced the start date before obtaining approval for the programming
decision. On September 29, 2005, the Director of AFRTS held a teleconference
with AFN-BC personnel and authorized the addition of “The Ed Schultz Show” to
AFN Radio inventory on October 17, 2005. He also directed the Chief of the
AFN Radio Division to inform the show’s syndicator of this decision. However,
according to the undocumented approval process, the Director of AFRTS was not
an approval authority. Discussion during the teleconference led all attendees to
mistakenly understand that the Director of AFRTS was relaying a decision from
the Director of AFIS. Therefore, after the meeting, AFRTS personnel took
actions to add the show to the inventory and notified the show’s syndicator of
their intention to begin broadcast of the show on October 17, 2005. E-mail traffic
between October 5, and 17, 2005, showed resistance by AFIS personnel to adding
the show without first briefing the ASD(PA). Ultimately, the Director of AFIS,
made the decision to withhold the planned start date until she could brief the
ASD(PA) and obtain approval. The Director of AFIS was unable to provide
evidence identifying when the actual briefing to the ASD(PA) occurred.




                                    8
          However, in November 2005, she granted approval by e-mail to add “The
          Ed Schultz Show” and two other political talk-radio programs to AFN Radio
          inventory. 6

          Obtaining Programming for Broadcast
          AFRTS did not document the procedures needed to obtain and prepare a program
          for broadcast on AFN Radio once the proper level of management had granted
          approval. Before broadcasting a program on AFN Radio, AFRTS had to obtain
          from the program’s syndicator a signed agreement to provide the programming at
          no charge to the Government and define the operational programming
          requirements needed to download the radio program for broadcast on AFN Radio.
          Although AFRTS personnel had not documented these requirements in DoD
          Regulation 5120.20-R, they used a consistent process for adding each of the three
          political talk-radio programs to the broadcast schedule on December 5, 2005.
          Documenting procedures will provide AFRTS managers with the ability to
          demonstrate that AFRTS personnel followed consistent procedures for obtaining
          and preparing programs for broadcast on AFN Radio.

Diversity of AFN Radio Programming
          AFRTS managers did not base their 2005 radio programming decisions on
          listener survey results. AFRTS personnel stated their mission was to provide
          programming which their overseas listeners desired. Therefore, we expected that
          periodic surveys would have been part of the normal review process. However,
          until it commissioned a survey that began in January 2006, AFRTS had not
          conducted a detailed radio survey in more than 3 years. To assist AFRTS in
          determining which radio programs to broadcast, it should have used worldwide
          surveys to determine what its audiences wanted to hear. With the constant
          turnover of overseas personnel, AFRTS should conduct surveys on a frequent
          basis.

          AFRTS 2006 Survey Results. The Lund Consultants to Broadcast Management
          Inc. issued the “AFRTS Worldwide Radio Management Analysis,” April 28,
          2006. They conducted this survey from January through April 10, 2006. The
          survey noted that AFRTS had begun offering three new political talk-radio
          programs on December 5, 2005, but that only a few affiliate stations had made
          any changes to their schedules to offer these programs. The survey also noted
          that talk-radio programs were not very popular with AFN Radio audiences.
          Overseas personnel enjoy this format far less than the general listening audience
          in the United States. The survey showed that 34 of the 60 affiliate stations
          broadcast only music or locally developed programming. Among the 60 affiliate
          stations, 26 broadcast 1 or more of the 4 political talk-radio programs from the
          AFN-BC inventory as part of the weekday schedule. All 26 stations carried “The
          Rush Limbaugh Show.” The survey also showed that:


6
    AFN-BC added “The Sean Hannity Show,” “The Ed Schultz Show,” and “The Al Franken Show” to the
    AFN Radio inventory on December 5, 2005.



                                                  9
          •   10 affiliate stations carried “The Ed Schultz Show,”

          •   2 affiliate stations carried “The Sean Hannity Show,” and

          •   3 affiliate stations carried “The Al Franken Show.”

   AFRTS personnel told us that several affiliate stations were awaiting the results of
   the Lund Survey to make programming changes. The survey showed that only
   12 of the 26 affiliate stations carried both a progressive and conservative political
   talk-radio program. The survey report made recommendations as to how AFRTS
   should achieve diversity in broadcasting political talk-radio programming in the
   future. One recommendation was for AFRTS to take more control over the
   programming of the affiliate stations. Because the April 2006 survey results
   indicated that AFN Radio listeners did not frequently listen to talk-radio
   programs, AFRTS may eventually decide to modify the political talk-radio
   programs it offers. The Director of AFN-BC should take steps to assess and
   implement survey recommendations to assist AFRTS in providing the Voice
   Channel and affiliate stations with a diverse and balanced radio programming
   inventory, including political talk-radio programs.

   Control Over Programming Diversity. AFRTS had the responsibility to
   provide a diverse inventory of programming for use by the affiliate stations.
   However, AFRTS did not provide diversity in political talk-radio until
   December 5, 2005, when it added one conservative and two progressive political
   talk-radio programs to the Voice Channel. Even though AFRTS managers
   recommended that affiliate stations provide both types of programs to radio
   listeners, several of the affiliate stations had not chosen to broadcast both types of
   political talk-radio programming. AFRTS did not exercise direct control over
   what programs the affiliate stations chose for broadcast. Consequently, the local
   affiliate station managers determined the categories of programs and their
   broadcast times. Military Department Broadcast Services said AFN affiliate
   stations based their programming selections on the results of local surveys.
   Affiliate stations selected programs to reach the largest audience possible for
   disseminating command information. Therefore, AFRTS had to factor in these
   other considerations when choosing radio programming.

Summary
   AFRTS did not document its procedures for identifying, selecting, approving,
   obtaining, and preparing radio programs for broadcast. AFRTS personnel
   conducted these procedures on an informal basis and did not maintain
   documentation to support their programming selections. The lack of documented
   procedures subjected the AFRTS decision making process to increased criticism
   and prompted others to question these decisions. Further, by not documenting
   procedures, AFRTS allowed for misinterpretation of its programming selection
   process. AFRTS must update DoD Regulation 5120.20-R and identify the
   policies, procedures, and controls for making radio programming decisions.
   AFRTS must also clearly identify and document the approval of programming
   decisions.



                                         10
Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Director, American Forces Information Service,
    in conjunction with the Director, American Forces Radio and Television
    Service, update DoD Regulation 5120.20-R to provide written policies,
    controls, and procedures for the radio programming decision making
    process. The guidance should:

            a. Establish criteria and documentation requirements for reviewing,
    selecting, approving, and preparing radio programs for broadcast.

           b. Incorporate the newly developed flowcharts of the American
    Forces Network Radio decision making process. Identify the decision points
    and the positions of authority responsible for making and approving
    programming decisions.
            c. Categorize, in ways comparable to the radio industry, the types of
    radio programming offered on American Forces Network Radio and develop
    policies for determining program diversity in each category or explicitly state
    the categories and circumstances when program diversity is not a
    consideration.

          d. Define key terms such as program diversity, balanced
    programming, progressive programming, and conservative programming.

           e. Establish the responsibilities and documentation requirements for
    each approval level engaged in making radio programming decisions.

           f. Establish the frequency for conducting audience surveys to help
    ensure that U.S. Forces overseas receive radio programming that meets their
    needs.

    Management Comments. The Deputy Assistant Secretary of Defense for
    Internal Communications concurred and stated that DoD Regulation 5120.20-R
    will be updated to provide written policies, controls, and procedures for the radio
    programming decision making process.

    Audit Response. The Deputy Assistant Secretary of Defense for Internal
    Communications comments are partially responsive. Although she agreed to
    update DoD Regulation 5120.20-R, she did not address whether the regulation
    would include the guidance specified in Recommendations 1.a. through 1.f. We
    request that the Deputy Assistant Secretary of Defense for Internal
    Communications provide additional comments in response to the final report.




                                         11
2. We recommend that the Director, American Forces Network-Broadcast
Center:

       a. Create and maintain written files to document radio programming
decisions.

Management Comments. The Executive Director, Defense Media Center
concurred and stated that the AFN-BC had updated its program acquisition
procedures by adding a process to create and maintain written files of AFN Radio
programming decisions.

       b. Assess the Lund Survey and implement survey recommendations
that will provide the Voice Channel and affiliate stations with a diverse and
balanced radio programming inventory, including political talk-radio
programs.

Management Comments. The Executive Director, Defense Media Center
concurred and stated that the AFN-BC will meet with the AFRTS in the first
quarter of FY 2007 to assess recommendations made in the Lund Survey and
develop an approach for programming political talk-radio programs on AFN
Radio. Although not required to comment, the Deputy Assistant Secretary of
Defense for Internal Communications also agreed to assess the recommendations
made in the Lund Survey.




                                   12
Appendix A. Scope and Methodology
   We performed this audit in response to a congressional request from
   Representative Louise M. Slaughter and 23 of her colleagues. (See Appendix B
   for a copy of the formal request letter.) The congressional request expressed
   particular concerns about delays in providing balanced (conservative versus
   progressive) viewpoints on AFN Radio. Therefore, we concentrated on the
   AFN-BC procedures used for identifying, selecting, approving, and obtaining
   political talk-radio programs for broadcast on AFN Radio. We reviewed the
   process used by AFN-BC to select radio programming for the AFRTS broadcast
   inventory. We assessed whether AFN-BC applied the review process consistently
   when selecting political talk-radio programs. We also attempted to assess the
   diversity of the programming provided by AFN Radio before and after
   December 2005. We performed this audit from January 2006 to July 2006 in
   accordance with generally accepted government auditing standards.
   We visited and interviewed personnel at Headquarters, AFIS, Alexandria,
   Virginia; AFN-BC, Riverside, California; the Army Broadcasting Service,
   Alexandria, Virginia; and the Navy Broadcast Service, Washington, D.C. We
   also visited and interviewed individuals at Jones Radio Network, the syndicator of
   “The Ed Schultz Show.” We conducted a telephone interview with personnel at
   the Air Force Broadcast Center, San Antonio, Texas. We reviewed information
   on the Internet website of “The Ed Schultz Show” and other political talk-radio
   hosts to determine their political viewpoint.

   We examined and evaluated DoD and AFRTS regulations and an internal
   programming procedure document and compared them to the processes as
   explained in interviews of AFRTS personnel. We reviewed and evaluated e-mail
   messages and other documentation that AFIS and AFRTS personnel gave us to
   corroborate support for information furnished during interviews, including the
   program review process, programming decisions, programming classifications,
   program diversity, and censorship policies. We summarized the controls,
   processes, and decision and approval points into two flow charts (Appendix E)
   and obtained AFRTS management clarification and concurrence with our
   understanding of the process. We examined the processes and events surrounding
   the AFRTS announcement to add “The Ed Schultz Show” to AFN Radio in
   October 2005. We also examined how AFRTS applied the review process to the
   three political talk-radio programs added to AFN Radio in December 2005. We
   reviewed copies of the broadcast agreements for the three political talk-radio
   programs as well as for the conservative talk-radio program that had been in the
   broadcast inventory since January 1994. We attempted to determine the diversity
   of the programming inventory by program category.

   We conducted telephone interviews with staffers of the Offices of Senators
   Tom Harkin and Byron L. Dorgan to better understand the methodology used and
   the support for the data presented in letters and news articles attributed to the
   Senators related to talk-radio programming.




                                       13
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office (GAO) High Risk Area. GAO has
    identified several high-risk areas in DoD. This audit did not correlate to any of
    the high-risk areas.

Prior Coverage
    GAO and the DoD IG have not issued reports on this matter during the last
    5 years.




                                         14
Appendix B. Congressional Request




                     15
16
17
Appendix C. Response to Issues in the
            Congressional Request
Representative Louise M. Slaughter and 23 of her colleagues requested that the Acting
DoD IG examine the review process for the programming permitted on AFN Radio and
determine whether the application of the review process on conservative and progressive
programming was objectively applied. The representatives also requested that we assess
the diversity of the programs broadcasting on AFN Radio. We concluded that AFRTS
managers objectively applied the review process in selecting political talk-radio
programming on AFN Radio. However, AFRTS did not provide diverse political
talk-radio programs to AFN Radio listeners until December 5, 2005, when it added “The
Ed Schultz Show” and two other political talk-radio programs to the AFN Radio
inventory. The congressional representatives also raised other issues in their request.
Our detailed response to each of those issues follows.
Issue 1. DoD refused to carry “The Ed Schultz Show” on the AFN Radio.

Response. AFRTS did not refuse to carry “The Ed Schultz Show.” The show was
delayed from the scheduled debut date (October 17, 2005) because AFRTS did not have
final approval from the ASD(PA) for airing the show. In addition, AFRTS did not yet
have a signed agreement from the radio show’s syndicator. AFRTS requires signed
agreements that set forth the broadcasting guidelines and limitations. There was no
indication that the delay to carry the program was directly related to an alleged incident
relating to the involvement of the Deputy Assistant Secretary of Defense for Internal
Communications in staging a video teleconference press event between the President and
U.S. troops. In November 2005, the Deputy Assistant Secretary of Defense for Internal
Communications granted approval to add “The Ed Schultz Show” and two other political
talk-radio programs to AFN Radio. The agreement for “The Ed Schultz Show” was
signed on November 11, 2005. The shows were added to the broadcast inventory on
December 5, 2005.

Issue 2. The Pentagon delayed providing balanced programming on AFN Radio.

Response. Before 2005, AFN Radio broadcast only one political talk-radio program. In
1994, AFN Radio began broadcasting the first hour of “The Rush Limbaugh Show” on
the Voice Channel. Beginning in 2004, based on congressional inquiries concerning the
diversity in radio programming, AFRTS personnel actively began searching for a
political talk-radio program to balance the viewpoints provided on AFN Radio. Although
the number of nationally syndicated progressive political talk-radio programs had
increased, none of the programs had more than 1 million listeners. The Fall 2005 rating
list in “Talkers Magazine,” publicized that “The Ed Schultz Show” and one other
progressive talk-radio show had at least 1 million listeners. After AFRTS obtained the
proper approvals for “The Ed Schultz Show” and completed final arrangements, AFN-BC
made the additional political talk-radio shows available in the programming inventory.
We recommend that DoD guidance define terminology such as “balanced” programming
in the context of shows that are in the AFN Radio inventory.




                                            18
Issue 3. There was an apparent lack of diverse political views available on AFN Radio.

Response. AFRTS had not adequately defined diversity in political talk-radio
programming. In addition, DoD guidance did not define terminology such as “diversity”
in radio programming. AFRTS personnel expressed a general consensus that diversity in
programming meant availability of various types of programs in five program categories.
With the addition of political talk-radio programming to the AFN Radio inventory in
early 1994, AFRTS needed to update the DoD guidance to establish clear definitions of
what DoD considered “conservative” or “progressive” programming and how it applied
this terminology to the various categories of talk-radio programming when assessing
diversity. We recommend that DoD guidance define terminology such as “diversity” in
radio programming.

Issue 4. Efforts to include progressive programming appeared to have been stymied by
overtly burdensome review processes and communications.
Response. AFRTS did not document its procedures for identifying, selecting, approving,
obtaining, and preparing radio programs for broadcast. However, AFRTS personnel were
able to describe the procedures they used as well as the associated controls, policies,
decision points, and approval levels. We recommend that AFRTS update DoD
Regulation 5120.20-R to provide written policies, controls, and procedures for the radio
programming decision making process. When documenting the policies, procedures, and
controls, AFRTS personnel may identify ways to improve or streamline the process for
making radio programming decisions. We did not find that AFRTS’ review processes
and communications prevented timely inclusion of progressive programming to the
program inventory.

Issue 5. The program review process was unnecessarily impeding our troops’ access to
balanced and diverse programming.

Response. The length of the program review process did not unnecessarily impede our
troops’ access to variety of radio programming. AFN Radio distributed a wide variety of
radio programs to U.S. troops stationed overseas. Radio programming consisted of
international, national, and military radio news; commentary; talk-radio programs; and
play-by-play sports. Service members were able to hear talk-radio programming on the
Uninterrupted Voice Channel. AFN affiliate stations also broadcast radio programs from
the AFN broadcast inventory based on the listening audience’s desires. Beginning in
2004, AFRTS personnel actively began searching for a political talk-radio program to
balance the viewpoints provided on AFN Radio. Although the number of nationally
syndicated progressive political talk-radio programs had increased, none of the programs
had more than 1 million listeners, which was one selection criterion. However, a review
of available documents indicated that the initial decision to select “The Ed Schultz Show”
was made before documenting that the show had 1 million listeners. It was not until the
Fall 2005 rating list in “Talkers Magazine,” identified “The Ed Schultz Show” and one
other progressive talk-radio show as programs with at least 1 million listeners. AFRTS
added two progressive talk-radio programs and an additional conservative political talk-
radio program approximately 6 weeks after October 17, 2005. On December 5, 2005,
AFRTS completed all operational requirements to add programming to the AFN Radio.




                                           19
Issue 6. The review process used for the selection of progressive programming was more
stringent than that used for conservative programming.

Response. AFRTS managers used similar criteria for selecting the conservative and
progressive political talk-radio programming that was added to AFN Radio in
December 2005. AFRTS personnel objectively applied their unwritten criteria to both
conservative and progressive political talk-radio programming while trying to provide an
equal number of diverse political viewpoints to AFN Radio listeners. The Fall 2005
rating list in “Talkers Magazine” indicated that programs identified as progressive
talk-radio shows, hosted by Al Franken and Ed Schultz, attained 1 million listeners in the
Spring of 2005. Both programs identified as conservative talk-radio shows, hosted by
Rush Limbaugh and Sean Hannity, had more than 10 million listeners in the Fall 2005
edition of “Talkers Magazine.” We did not attempt to review the process used in 1994 to
add “The Rush Limbaugh Show” to AFN Radio.

Issue 7. The DoD Regulation states that the programming on the AFRTS is provided
without censorship, propagandizing, or manipulation. Given the lack of diversity, we are
concerned that this regulation is not being obeyed.

Response. We did not find any indication that AFRTS did not follow DoD
Regulation 5120.20-R, “Management and Operation of Armed Forces Radio and
Television Services,” November 8, 1998. The Regulation addresses political
programming requiring AFRTS to provide equal programming time for political
candidates. It does not specifically address the diversity of radio programming for
political talk-radio programming. We recommend that AFRTS update DoD
Regulation 5120.20-R to provide written policies, controls, and procedures for the radio
programming decision making process.




                                            20
Appendix D. Glossary of Terms
   Affiliate. An affiliate station is any AFRTS-manned outlet authorized by the
   Director, AFRTS to disseminate radio or television programming associated with
   a network operation.

   Air Force Broadcasting Service. The Air Force Broadcasting service provides
   the centralized management element within the Air Force for the operation and
   maintenance of AFRTS affiliate stations under the control and jurisdiction of the
   Air Force.

   Army Broadcasting Service. As a field operating agency of the Office of the
   Secretary of the Army, Chief of Public Affairs, the Army Broadcasting Service is
   responsible for management and control of manpower, fiscal, equipment,
   maintenance, and engineering resources necessary to sustain Army AFRTS
   broadcast operations.

   Cable Systems. A cable system, provides a capability to distribute AFRTS radio
   and television signals or other programming to military installations,
   Government-owned and leased housing, and in an expanded autonomous
   geographic area such as a large U.S. Military installation in an area of
   responsibility. A cable system may be wireless or consist of physical cables.

   Censorship. Censorship is the intentional withholding or editing of news,
   information, and entertainment programming, which command cannot support
   with legitimate host-country sensitivities or by broadcast restrictions imposed by
   program owners.

   Direct-to-Home Satellite. Direct-to-Home Satellite is the method of receiving
   AFRTS satellite services using small satellite dishes installed on individual users’
   property. Direct-to-Home uses set-top decoders capable of receiving multiple
   channels of television and radio.

   Direct-to-Sailor Satellite. “Direct-to-Sailor Satellite,” commonly called “DTS,”
   includes satellite-delivered AFN-BC and certain Navy programming services for
   ships at sea. DTS service consists of two television channels and three radio
   services in alternating formats. A data channel also delivers an abbreviated daily
   newspaper and other information. DTS also serves as a backup-programming
   source to land-based outlets and as the primary AFRTS programming source at
   some remote locations.

   Manipulation. Manipulation is the intentional adapting, changing, modifying,
   tampering or editing of news, information, and entertainment programming, when
   command cannot support such action with legitimate host-country sensitivities or
   by broadcast restrictions imposed by program owners.




                                        21
Political Talk-Radio. A political talk-radio program presents a political
viewpoint on events from the host’s personal perspective. Political talk-radio
hosts usually have a specific political viewpoint. The political viewpoint of a
talk-radio host is identifiable by his/her general reputation in the mass media and
the information on the host’s Internet website.

Shortwave Radio. AFRTS uses shortwave radio frequency to broadcast in
combat zones.

Syndicator. A syndicator distributes commercial radio or television programs.

Unmanned Station. An unmanned AFRTS service consists of a receive-only
satellite dish and provides television and radio news, information, and
entertainment programming directly from AFRTS. This service requires no
additional manpower and provides no local internal information.
Voice Channel. The AFRTS Voice Channel features a schedule of military and
network news, talk-radio, and public affairs and information broadcasts, 24 hours
a day, 7 days a week.




                                     22
Appendix E. Program Decision Making Process
       AFRTS managers identified the steps required to identify, select, approve, and
       obtain programming for broadcast on AFN Radio. These procedures were not
       documented in AFRTS or other DoD regulations. Figure E-1 shows the steps
       required to air most radio programs.



                                          Identify
                                        Requirement

                                        Review for
                                        Selection
                                         Criteria


                                     Program Selection
                                     Recommendation


               AFRTS
               Policy          Yes        Policy
               Advice                    Review?



                                            No




                                       Dir AFRTS-BC
                        No                                      Yes
                                          Approval

                       Reject
                   Recommendation


                                            Yes                Gratis?              No


                                                                                Budget the
                                                                                Requirement

                                                                                Submit PR to
                                                                                 Contracting


                                           Gratis             Coordinate         Written
                                         Clearance            Operational        Contract
                                                             Requirements


                                                          Add Programming
                                                            to Inventory


                                                          Inventory Available
                                                              to Affiliates




Figure E-1. AFN Radio Program Decision Making Process




                                                     23
       Interviews conducted with managers indicated that the sensitivity of political
       talk-radio programming required an additional level of approval. Figure E-2
       shows the process for political talk-radio programming.




                                  Identify
                                Requirement


                                Review for
                                Selection
                                 Criteria


                             Program Selection
                             Recommendation


         AFRTS
         Policy        Yes        Policy
         Advice                  Review?                             Reject
                                                                 Recommendation


                                    No                                   No




                                                                       DASD-IC            OASD-PA
                               Dir AFRTS-BC            Yes
                  No                                                   Decision          Briefing and
                                  Approval
                                                                                          Feedback

                Reject
            Recommendation
                                                        Yes




                                    Yes                Gratis?                     No


                                                                                  Reject
                                                                              Recommendation
                                   Gratis            Coordinate
                                 Clearance           Operational
                                                    Requirements



                                                  Add Programming
                                                    to Inventory



                                                 Inventory Available
                                                     to Affiliates




Figure E-2. AFN Radio Political Talk-Radio Program Selection Process


                                                  24
Appendix F. Report Distribution

Office of the Secretary of Defense
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Auditor General, Department of the Army
Commander, Army Broadcasting Service

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commander, Navy Broadcasting Service

Department of the Air Force
Auditor General, Department of Air Force
Commander, Air Force Broadcasting Service

Other Defense Organizations
Director, American Forces Information Service
   Director, American Forces Radio and Television Service
       Director, American Forces Network-Broadcast Center

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform



                                           25
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (Cont)
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
Senate Committee on Appropriations
House Subcommittee on Federalism and the Census, Committee on Government Reform

Honorable Bryon L. Dorgan, U.S. Senate
Honorable Tom Harkin, U.S. Senate
Honorable Gary L. Ackerman, U.S. House of Representatives
Honorable Tammy Baldwin, U.S. House of Representatives
Honorable Rick Boucher, U.S. House of Representatives
Honorable Sherrod Brown, U.S. House of Representatives
Honorable John Conyers Jr., U.S. House of Representatives
Honorable Joseph Crowley, U.S. House of Representatives
Honorable Rahm Emmanuel, U.S. House of Representatives
Honorable Bob Filner, U.S. House of Representatives
Honorable Raul M. Grijalva, U.S. House of Representatives
Honorable Michael M. Honda, U.S. House of Representatives
Honorable Steny H. Hoyer, U.S. House of Representatives
Honorable Barbara Lee, U.S. House of Representatives
Honorable Carolyn Maloney, U.S. House of Representatives
Honorable Betty McCollum, U.S. House of Representatives
Honorable Jim McDermott, U.S. House of Representatives
Honorable James P. McGovern, U.S. House of Representatives
Honorable George Miller, U.S. House of Representatives
Honorable James L. Oberstar, U.S. House of Representatives
Honorable Frank Pallone Jr., U.S. House of Representatives
Honorable Earl Pomeroy, U.S. House of Representatives
Honorable Janice D. Schakowsky, U.S. House of Representatives
Honorable Louise M. Slaughter, U.S. House of Representatives
Honorable Diane E. Watson, U.S. House of Representatives
Honorable Lynn C. Woolsey, U.S. House of Representatives




                                        26
American Forces Information Service
Comments




                     27
American Forces Network-Broadcast Center
Comments




                     28
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Carmelo G. Ventimiglia
George C. DeBlois
Barbara A. Purvis
G. Marc Queck
